                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM
I



    Case Number:        Ioa050017                                                                Page 1 of 1



                   We received an allegation that a Principal Investigator (PI)' had forged undergraddate
           transcripts, grades, course titles, and diplomas.
                                                                                                         I

           The biographical sketch, submitted by the PI in the NSF proposal, listed receipt of a Bachelor of
           Science (B.S.) and a Masters of Science (M.S.) degree from an overseas institution2 as well as
           numerous published articles. It also listed receipt of a Masters of Science and a Doctor of:'
           Philosophy from educational institutions in the United States.
       1                                                                                                  I!

           In a related,legal matter, we learned that the PI had admitted that there were discrepancies
           between the original foreign documents and the English translations. The PI acknowledged
           preparing the translations and obtaining the university seal. The PI explained that the overseas
           institution did not have the capabilities to translate material. We confirmed that the PI had
           received a Masters of Science degree3and a Doctor of Philosophy4from US institutions. li

           We also learned that the NSF grant was awarded based on the quality of the proposal and its
                                                                                                        ll
           scientific merit. The PI'S overseas education was not considered in awarding the grant. During
           the peer review, the proposal was ranked number one among competing proposals. The panel                     ..
           felt the PI was qualified, had access to experimental facilities, and had worked with a well-'\
           known thesis advisorSin that area of study. The panel based its recommendation on the work the
           PI had done while in the United States.                                                        I

           We concluded that although the PI had altered information about her foreign training, this
           information had not been provided to NSF, and was not considered in its evaluation of her
           proposal and therefore, had no affect on NSF's decision making.
                                                                                                               11


           Accordingly, this case is closed




           I
               Footnote redacted
               Footnote redacted
               Footnote redacted
               Footnote redacted
               Footnote redacted


                                   Agent             Attorney                Supervisor                         AIGI
                        I                     I                      I                       I

      Sign i date       I
                        I
                                              I
                                              I
                                                                     I
                                                                     I
                                                                                             I
                                                                                             I                      I


                                                                                                   OIG Form 2 (2102)
